                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




An allegation was received of apparent plagiarism by the subject' in a proposal submitted to
N S F ~ .An inquiry confirmed the apparent duplication of text, and another proposal3 submitted by
the subject was also found to contain apparent duplication of unattributed text. An investigation
was referred to the subject's university. The investigation committee of the university confirmed
the plagiarism in both NSF proposals. However, the copied text was attributed to an individual4
who spent a short time in the subject's research laboratory. Ultimately the university concluded
that the subject acted recklessly in copying the text. Consequent university actions include
review of the subject's future proposals by a senior faculty member before submission, sessions
on research integrity in the new faculty orientation program, and a research integrity program for
the graduate student seminar series in several university departments.

We concur with the University's conclusion. The relatively small amount of copying involved
does not represent a significant departure from accepted practice. A letter to the subject was sent
that reminds him of his obligation to adhere to standards of scholarship in the preparation of his
future proposals. Other actions taken by the university emphasize the seriousness of this issue to
the subject and should be sufficient to protect NSF's interests.

Accordingly, this case is closed.
